HHS/OIG, Audit - "Audit of Clarian Health Partners' Organ Acquisition
Costs Claimed for the Period January 1, 2000, Through December 1, 2000,"
(A-05-04-00049)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Clarian Health
Partners' Organ Acquisition Costs Claimed for the Period January 1, 2000,
Through December 1, 2000," (A-05-04-00049)
July 7, 2005
Complete
Text of Report is available in PDF format (941 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the organ
acquisition costs that Clarian claimed on the calendar year 2000 Medicare cost
report for its kidney, heart, liver, lung, and pancreas transplant programs were
allowable.  Specifically, we determined whether Clarian complied with Medicare
law, regulations and guidelines for claiming organ acquisition costs and whether
it received excess Medicare reimbursement for organ acquisition activities.
Clarian claimed $414,385 in unallowable costs representing duplicated salary
costs and missing or incorrect adjustments for unallowable costs.  Based on
these unallowable costs, Medicare overpaid Clarian an estimated $270,665.
Unsupported costs of $2,524,864 did not comply with Medicare documentation
requirements for reimbursement.  If Clarian cannot provide alternative support
for this amount, a Medicare overpayment of $1,818,679 will exist related to
unsupported costs.
We recommended that the Medicare intermediary:  (1) recover the Medicare
overpayment of $270,665 for unallowable costs claimed as organ acquisition, (2)
work with Clarian to determine the allowable portion of the $2,524,864 in
unsupported costs and the related Medicare payment of $1,818,679 and recover the
portion that Clarian is unable to support, (3) review organ acquisition costs
that Clarian claimed on subsequent Medicare cost reports for issues similar to
those identified in CY 2000 and recover any Medicare overpayments, (4) monitor
Clarians future Medicare cost report claims for organ acquisition costs to
ensure compliance with Medicare requirements, and (5) instruct Clarian to
develop and maintain adequate time studies and accounting controls and to
provide clear direction to responsible personnel as to Medicare requirements for
claiming and documenting organ acquisition costs.  In response to our draft
report, officials for the intermediary stated that they could not respond to the
recommendations until they reviewed our working papers and documentation Clarian
provided in response to the draft report.  Clarian officials agreed with the
amounts of unallowable costs, but not with amounts for unsupported salaries or
space.